<html>
<title> - THE EMPLOYMENT SITUATION: MARCH 2009</title>
<body><pre>[Senate Hearing 111-112]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-112
 
                  THE EMPLOYMENT SITUATION: MARCH 2009

=======================================================================



                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 3, 2009

                               __________

          Printed for the use of the Joint Economic Committee



                  U.S. GOVERNMENT PRINTING OFFICE
52-188                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

HOUSE OF REPRESENTATIVES             SENATE
Carolyn B. Maloney, New York, Chair  Charles E. Schumer, New York, Vice 
Maurice D. Hinchey, New York             Chairman
Baron P. Hill, Indiana               Edward M. Kennedy, Massachusetts
Loretta Sanchez, California          Jeff Bingaman, New Mexico
Elijah E. Cummings, Maryland         Amy Klobuchar, Minnesota
Vic Snyder, Arkansas                 Robert P. Casey, Jr., Pennsylvania
Kevin Brady, Texas                   Jim Webb, Virginia
Ron Paul, Texas                      Sam Brownback, Kansas, Ranking 
Michael Burgess, M.D., Texas             Minority
John Campbell, California            Jim DeMint, South Carolina
                                     James E. Risch, Idaho
                                     Robert F. Bennett, Utah

                     Nan Gibson, Executive Director
               Jeff Schlagenhauf, Minority Staff Director
          Christopher Frenze, House Republican Staff Director


                            C O N T E N T S

                              ----------                              

                      Opening Statement of Members

Hon. Carolyn B. Maloney, Chair, a U.S. Representative from New 
  York...........................................................     1
Hon. Sam Brownback, Ranking Minority Member, a U.S. Senator from 
  Kansas.........................................................     3
Hon. Kevin Brady, a U.S. Representative from Texas...............     4

                               Witnesses

Dr. Keith Hall, Commissioner, Bureau of Labor Statistics; Mr. 
  Philip Rones, Deputy Commissioner, Bureau of Labor Statistics; 
  and Dr. Michael Horrigan, Associate Commissioner for Prices and 
  Living Conditions, Bureau of Labor Statistics, U.S. Department 
  of Labor.......................................................     6

                       Submissions for the Record

Prepared statement of Representative Carolyn B. Maloney..........    24
Prepared statement of Senator Sam Brownback......................    24
Prepared statement of Representative Kevin Brady.................    25
Prepared statement of Dr. Keith Hall, Commissioner, Bureau of 
  Labor Statistics, together with Press Release No. 09-0328......    26
Report entitled ``New Keynesian versus Old Keynesian Government 
  Spending Multipliers''.........................................    58
Prepared statement of Elijah E. Cummings.........................    80


                  THE EMPLOYMENT SITUATION: MARCH 2009

                              ----------                              


                         FRIDAY, APRIL 3, 2009

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met at 9:30 a.m. in Room 106 of the Dirksen 
Senate Office Building, the Honorable Carolyn B. Maloney 
(Chair), presiding.
    Senators present: Casey and Brownback.
    Representatives present: Maloney and Brady.
    Staff present: Gail Cohen, Nan Gibson, Colleen Healy, 
Anabelle Tamerjan, Andrew Wilson, Jeff Schlagenhauf, Chris 
Frenze, Bob Keleher, and Robert O'Quinn.
    Chair Maloney. Thank you very much, Commissioner Hall, for 
testifying today, and also welcome your colleagues that are 
here. The Chair recognizes herself for an opening statement.

  OPENING STATEMENT OF HON. CAROLYN B. MALONEY, CHAIR, A U.S. 
                  REPRESENTATIVE FROM NEW YORK

    A few glimmers of hope have surfaced in the economy in 
recent weeks as factory orders posted gains last month, a key 
manufacturing index rose, and credit markets have begun to 
thaw. But today's jobs report highlights the fact that there 
are virtually no bright spots yet in the labor market.
    In each of the last five months employers have slashed 
about 600,000 or more jobs. Staggering job losses have totaled 
more than 5 million since the start of the recession. The 
unemployment rate now stands at 8.5, a jump of 3.6 percentage 
points since the downturn began 15 months ago. And the broadest 
measure of unemployment or under-employment that the BLS 
publishes is now at 15.6 percent.
    For the first time in at least 30 years every state in the 
Nation is in recession. The state and local unemployment 
numbers for February, which were released recently, show that 7 
states already have unemployment rates over 10 percent.
    Although my home State of New York is not one of those 
states, the unemployment rate in New York State jumped .8 
percentage points last month, the largest one-month jump in 
almost 20 years. And the 1.2 percentage point jump in 
unemployment in New York City represents the largest spike that 
New York City has seen since BLS started collecting this data.
    I am particularly concerned by the long duration of 
unemployment faced by a great number of workers, and the 
disruptive impact that this long-term unemployment has had and 
will have on these workers and their families.
    Almost one in four unemployed workers is experiencing an 
unemployment spell of six months or longer, the highest level 
in over 25 years. And of those long-term unemployed workers 
more than half of them have been looking for work for over a 
year.
    This type of long-term unemployment is straining families 
and forcing them to take on more debt as the financial pressure 
of making ends meet mounts.
    Even before job losses began accelerating, many families 
were increasingly holding balances on their credit cards just 
to pay for basic household necessities. The most recent data 
available from the Survey of Consumer Finances shows that an 
increased proportion of families, especially middle class 
families, have been accumulating larger mountains of debt on 
their credit cards.
    Because of this increased reliance on credit cards, 
especially by families of displaced workers, it is even more 
important that legislation concerning credit cards is put into 
place immediately.
    The Credit Card Holders Bill of Rights was voted out of 
subcommittee yesterday and will be moving through the House 
later this month, and I remain very hopeful that the Credit 
Card Accountability, Responsibility, and Disclosure Act, which 
was voted out of the Senate Banking Committee this week, will 
also be on the Senate Floor without delay.
    Both of these bills would prohibit certain current 
practices that are hurting financially strapped cardholders. 
The recovery measures that Congress passed and President Obama 
signed into law in the first 60 days in office are just 
beginning to work their way into the economy.
    Speaker Pelosi announced this week that the middle class 
tax cuts have now gone into effect, so families will see an 
increase in their take-home pay.
    One in ten Americans are now receiving food stamps, so a 
temporary increase in food stamp benefits will also go into 
effect this month. These benefits are set to rise as much as 
$80 a month for a family of four. Both of these measures should 
provide a much-needed boost to consumer spending.
    Last night, both the House and the Senate passed the Budget 
Resolutions. A budget is fundamentally about priorities, and 
our blueprint builds on our recovery efforts by making 
investments in health care, renewable energy, and education to 
put our people back to work and strengthen our economy in the 
future.
    Today's grim unemployment numbers underscore the wisdom of 
the stimulus package that Congress worked so hard to pass 
quickly. We will continue to focus on making sure that the 
economy gets working again and examining ways to help 
struggling families.
    I would like to note that at least the stock market is up.
    [The prepared statement of Representative Maloney appears 
in the Submissions for the Record on page 24.]
    With that, I will recognize the Ranking Member, Senator 
Brownback.

   OPENING STATEMENT OF HON. SAM BROWNBACK, RANKING MINORITY 
               MEMBER, A U.S. SENATOR FROM KANSAS

    Senator Brownback. I want to thank the Chairlady for 
holding the hearing, and thank you very much, Commissioner 
Hall, for being here. I wish the news were better; I think we 
all wish the news were better, but it obviously is not.
    We want to dissect today's report to see what's going on in 
various sectors. So I will appreciate the question and answer 
session.
    Today's employment report on labor market conditions in 
March brings more bad news: employers shed 663,000 payroll jobs 
in March and the unemployment rate rose to 8.5 percent from 8.1 
in February and 5.1 a year earlier.
    In total we have lost 5.1 million payroll jobs since the 
beginning of the recession and 3.3 million jobs in the past 5 
months alone. Behind these numbers is a great deal of 
dislocation, pain, and suffering in American families.
    Given the severity of the economic downturn that we face 
and efforts already under way to try to offset the downturn, it 
is clear to me that we need to get the policy mix right from 
this point forward, and the last thing we need to do is to do 
things in the policy realm that will hurt the American people, 
American families, and American businesses and introduce 
uncertainty into the employers' marketplace and into the 
marketplace in total.
    This is not the time to raise taxes. Yet that is precisely 
what the Congress and the Administration have been talking 
about doing. And make no mistake, the budget that we just 
currently are considering and passed last night, by initiating 
a move towards more government programs in health care and 
taxes on carbon emissions, will ensure that 100 percent of 
Americans can expect to pay higher taxes in the future.
    The economy needs help. But rather than actually 
stimulating the economy by providing improved incentives to 
work and invest, we have been devoting trillions of dollars of 
taxpayer money to expanding and creating permanent, long-term 
government spending programs and income redistribution 
mechanisms.
    We have budgets from the Administration and the Democrats 
that control Congress that seek to impose higher taxes on small 
businesses, higher taxes on income from capital, beginning 
implementation of a mechanism that will tax anyone who uses 
carbon, and beginning a process of nationalizing health care 
insurance, among other things.
    This is precisely the wrong time and the wrong message. It 
is not the time to raise taxes. It is not the time to inject 
uncertainty about what taxes are going to be in the future.
    In the face of a severe downturn in the economy and 
significant declines in stock values and homeowner wealth, it 
is almost inconceivable that there are those who wish to raise 
taxes in this environment.
    What will higher taxes on small business owners do to job 
creation? What will higher taxes on dividends and other forms 
of capital income due to stock values and the portfolios of 
every American family?
    What will new carbon taxes under the name of ``cap and 
trade'' do to our already struggling industrial base? Now is 
clearly not the time to increase taxes and chase more jobs and 
production offshore.
    Judging from calls that I receive from my Kansas 
constituents where votes are placed with private investments in 
their work, the verdict on how we are handling our Nation's 
financial and economic crisis is not positive.
    Some of my constituents have expressed unwillingness to 
commit to new investments and expansions of their businesses 
because of growing uncertainty since the beginning of the year:
    Uncertainty about how high their taxes will be raised; 
uncertainty about how much a cap and trade carbon policy will 
translate into higher energy taxes;
    Uncertainty about the extent to which health care policies 
will translate into new government mandates and price controls;
    Uncertainty about whether mortgage contracts may be in the 
future be subject to judicial rewrites in bankruptcy courts; 
and
    Uncertainty about rules of the workplace, including how 
workers and businesses decide on their representation.
    There are many people in the heartland who are genuinely 
and rightly upset that they are now being asked to support a 
permanent expansion of government and to support the highly 
leveraged speculative bets placed by the big financial 
institutions that are ``too big to fail.''
    Many of my constituents are also experiencing a great deal 
of uncertainty about how far the Administration will try to 
reach in its attempts to restructure the economy and vastly 
expand the scope of government intervention into their lives.
    We need to halt the mad dash to big government as the 
solution to all of our problems and put incentives in place 
that help Americans grow their businesses, invest, create jobs, 
and prosper. Higher taxes and ever-expanding government and 
creation of uncertainty are not the way to provide those 
incentives.
    I look forward to the testimony of Commissioner Hall to 
dissect what's in this report. I do hope we get the policy 
message right and not harmful to the economy.
    Thank you, Chairwoman.
    Chair Maloney. Thank you.
    [The prepared statement of Senator Brownback appears in the 
Submissions for the Record on page 24.]
    Congressman Brady is recognized for five minutes.

 OPENING STATEMENT OF HON. KEVIN BRADY, A U.S. REPRESENTATIVE 
                           FROM TEXAS

    Representative Brady. Thank you, Chairwoman Maloney. It is 
a pleasure to join with Ranking Member Senator Brownback for 
today's hearing.
    I would like to join in welcoming Commissioner Hall before 
the Committee, as well. Those looking for good news in these 
numbers will not likely find them.
    The employment data released this morning show the impact 
of the deepening recession. Payroll employment declined by 
663,000 in March, with losses broadly shared among major 
industry groups. The unemployment rate increased to 8.5 
percent, the highest since November 1983. And current trends 
suggest that further increases are likely in coming months.
    The job figures reported today add to the growing body of 
evidence indicating that the Administration' economic forecast 
is much too optimistic.
    The unemployment rate is already significantly above the 
Administration's forecast for all of 2009. The White House 
projects that real GDP will fall 1.2 percent this year, and 
rise to over 3 percent next year, compared with the Blue Chip 
Consensus forecast of a decline of almost twice that much, 2.6 
percent this year and an increase of 1.9 percent next year. The 
CBO figures also show how far the Administration is likely off 
in their numbers for this year.
    As we go forward, what the Administration's unduly 
optimistic economic assumptions create are a major problem. 
These optimistic assumptions are a key foundation of the 
President's budget proposals and lead to artificially low 
deficit and debt projections.
    No wonder The Economist called the assumptions in the 
budget ``deeply flawed'' in an article entitled ``Wishful, and 
Dangerous Thinking.'' Their effect is to make the 
Administration's expansive new spending proposals look less 
threatening than they actually are.
    The reason the Democrats' Congressional Budget Resolution 
got so far off track is that it is based on the President's 
budget. This is why a variety of accounting gimmicks are needed 
to hide the true costs of the Administration's dangerous 
spending sprees in the Democrats' House Budget Resolution, 
which passed last night.
    As The Washington Post said last week: In this resolution 
``Congress deals a blow to `honest budgeting.''' The Democrats 
are now attempting to shoehorn expensive Administration 
proposals based on unrealistic economic assumptions into a 
House budget that uses more realistic economic assumptions from 
the CBO.
    A realistic economic forecast would indicate that the 
fiscal situation is already very grim, with exploding deficits 
and debt for the foreseeable future.
    According to a recent study of many financial crises by 
Professors Kenneth Rogoff and Carmen Reinhart that has become 
an instant classic, the U.S. National Debt can be expected to 
increase by $8 trillion to $9 trillion just over the next three 
years.
    According to Rogoff, inflation of 8 to 10 percent is one 
likely way the government will end up financing the huge run-up 
in federal debt. He compares the coming economic environment to 
the 1970s which was a time of rising inflation, weak economic 
growth, and rising unemployment.
    The Democrats' budget will add yet more deficit spending 
and debt to the huge amounts of each already in the pipeline. 
The result will be much higher taxes and inflation in the 
future, and lower economic growth.
    Higher inflation in coming years will further reduce the 
American standard of living as incomes and retirement funds are 
further eroded.
    The last time Democrats controlled both ends of 
Pennsylvania Avenue for a significant length of time was in the 
1970s and stagflation was the result. So nobody should be 
surprised if history repeats itself.
    I yield back.
    [The prepared statement of Representative Brady appears in 
the Submissions for the Record on page 25.]
    Chair Maloney. Thank you. And I now would like to recognize 
Commissioner Hall and introduce him for as much time as he may 
consume. Dr. Keith Hall is the Commissioner of the Bureau of 
Labor Statistics at the U.S. Department of Labor. Before 
becoming BLS Commissioner, Dr. Hall served as Chief Economist 
for the White House Council of Economic Advisors during the 
George W. Bush Administration. Prior to that, he was Chief 
Economist for the U.S. Department of Commerce. Dr. Hall 
received his B.A. Degree from the University of Virginia and 
his M.S. and Ph.D. Degrees in Economics from Purdue University.
    Thank you very much for coming, and we are delighted to 
have you here and we look forward to your testimony.

  STATEMENT OF DR. KEITH HALL, COMMISSIONER, BUREAU OF LABOR 
   STATISTICS, U.S. DEPARTMENT OF LABOR; ACCOMPANIED BY: MR. 
     PHILIP I. RONES, DEPUTY COMMISSIONER, BUREAU OF LABOR 
STATISTICS; AND DR. MICHAEL W. HORRIGAN, ASSOCIATE COMMISSIONER 
 FOR PRICES AND LIVING CONDITIONS, BUREAU OF LABOR STATISTICS, 
       UNITED STATES DEPARTMENT OF LABOR, WASHINGTON, DC.

    Commissioner Hall. Thank you.
    Madam Chair and Members of the Committee:
    Labor market conditions continued to deteriorate in March. 
Total nonfarm payroll employment decreased by 663,000, and the 
unemployment rate increased from 8.1 to 8.5 percent.
    Since the beginning of the recession in December of 2007, 
job losses have now totaled 5.1 million, almost two-thirds of 
which occurred in just the past 5 months.
    These declines have been widespread across industry 
sectors, but particularly sharp in manufacturing, construction, 
and temporary help services. Together, these three industries 
have accounted for nearly two-thirds of the job loss during the 
recession.
    In March, manufacturing employment fell by 161,000, with 
job losses spread through the sector. Since the start of the 
recession, manufacturing has shed 1.5 million jobs, with about 
60 percent of the loss occurring in the past 5 months. In 
March, the average workweek in manufacturing decreased by two-
tenths of an hour.
    Construction employment declined by 126,000 over the month. 
Since the beginning of the recession, employment has dropped by 
about 1.1 million, with more than half of that total occurring 
in the past 5 months.
    In March, employment continued to contract throughout most 
of the service-providing sector. Temporary help services shrank 
by 72,000 over the month once the recession began. Employment 
in the industry is down by about three-quarters of a million, 
which is about 30 percent of the payroll jobs in that industry, 
and over half of that coming in the past 5 months.
    In March, other large job losses occurred in retail trade, 
financial activities, transportation and warehousing, 
accommodation and food services, and wholesale trade.
    Health care employment continued to trend up in March, 
although the pace of job growth appears to have slowed in the 
past 3 months.
    In the first quarter of 2009, the industry added an average 
of 17,000 jobs per month, compared with a monthly average of 
30,000 in 2008.
    Average hourly earnings for production and nonsupervisory 
workers in the private sector rose by 3 cents in March. Over 
the past 12 months, average hourly earnings have increased by 
3.4 percent.
    From February 2008 to February 2009, the seasonally 
adjusted Consumer Price Index for Urban Wage Earners and 
Clerical Workers fell by a half a percent.
    The major indicators from our Household Survey also reflect 
weaker labor market conditions. In March, the unemployment rate 
rose by four-tenths of one percentage point to 8.5 percent, and 
the number of unemployed persons reached 13.2 million.
    Since the recession began in December 2007, unemployment 
has surged by 5.6 million. Job losers have accounted for about 
80 percent of the increase, with returning workers and new 
entrants to the labor market making up smaller portions.
    In March, the number of individuals experiencing long 
spells of joblessness rose by 265,000 to 3.2 million. Nearly 
one in four of the unemployed had been jobless for over 6 
months, the highest ratio since mid-1983.
    Over the month, the employment-to-population ratio slipped 
to 59.9 percent, 2.8 percentage points lower than at the 
beginning of the recession and the lowest level since July of 
1985.
    Among the employed, the number of persons working part time 
who would have preferred to work full time increased by 423,000 
over the month to 9 million. Since December 2007, this measure 
has risen by 4.4 million.
    Summarizing the labor market developments for March, 
payroll employment fell by 663,000 and the unemployment rate 
climbed to 8.5 percent. Since the beginning of the recession in 
December 2007, job losses have totaled 5.1 million.
    My colleagues and I would now be glad to answer your 
questions.
    [The prepared statement of Commissioner Hall appears in the 
Submissions for the Record on page 26.]
    Chair Maloney. First of all, welcome to you and your 
colleagues.
    Do you have any good news? Are there any positive economic 
indicators? Are there any bright spots in this month's jobs 
report?
    Commissioner Hall. There are very few bright spots in this 
month's jobs report.
    Chair Maloney. Are there any anywhere?
    Commissioner Hall. To be honest, no. In fact, the decline 
has been remarkably consistent. This month we lost 663,000 
jobs. Over the past five months we have averaged losing 667,000 
jobs.
    Chair Maloney. Last month you told us that this recession 
had 4 out of the 10 worst months on record. Is this up to 5 out 
of 10 now?
    Commissioner Hall. Yes, it is. Of the months with over a 
half a million jobs lost, 11 months with half a million jobs 
lost, we have now got 5 of those in a row.
    Chair Maloney. Are there any indicators that job losses are 
not accelerating, or that they will slow any time soon?
    Commissioner Hall. I would say the job losses have been 
remarkably consistent. The labor market continues to 
deteriorate at about the same pace.
    Chair Maloney. And what is the typical amount of time after 
a contraction ends before the labor market starts showing any 
signs of recovery?
    Commissioner Hall. Actually, the job loss should probably 
start to slow about the same time that the economy starts to 
recover, but it would probably be quite a while before the 
unemployment rate--we would get strong enough growth for the 
unemployment rate to stop rising. That often lags behind quite 
a bit.
    Chair Maloney. We hear a lot in the media and others saying 
that this recession is comparable to the Great Depression. I 
would like to hear more about how this recession compares to 
past economic slumps. How does this compare to past downturns 
in terms of its impact on the labor market?
    Commissioner Hall. The job loss is very large. In 
percentage terms, we have now lost over the past five months 
about 2.4 percent of our jobs. That is the most since March of 
1975. Probably more concerning is that this job loss appears to 
not be slowing, so we could surpass the 1975 if this continues, 
in which case we're going back all the way to say 1958 before 
we've had this degree of job loss.
    Chair Maloney. The current downturn is already longer than 
the last two recessions. Based on historical data, how long is 
it likely to take for employment to recover to its prerecession 
peak?
    Commissioner Hall. That actually varies quite a lot. The 
two most recent recessions it took quite a long time. In the 
2001 recession it took over three years for the job level to 
get back to its prerecession level. In the 1990 recession it 
took about two years.
    Chair Maloney. Following six straight months of losses, 
durable goods orders increased by 3.5 percent last month, 
contrary to most economists' expectations. This marks the first 
increase in monthly durable goods orders in six months.
    What do you think this uptick means for the labor market, 
if anything? You've got to admit that is at least one positive 
indicator.
    Commissioner Hall. It is. And I agree with your earlier 
statement that it is a glimmer of hope. Because it is only one 
month, we don't have a trend. To the degree that this may be 
signaling rising business confidence, and if it is rising 
business confidence it would be confidence that consumer 
spending is going to pick up, that would be a good sign. But 
again it is only one month.
    Chair Maloney. I am concerned about the number of reports 
of major newspapers slashing jobs. The third largest newspaper 
in the country, the McClatchy Chain, announced earlier this 
month that it was slashing 1600 jobs, and many others are 
making similar reports.
    Based on the data, can you tell us how many jobs have been 
lost in the publishing industry since the recession began in 
December of 2007?
    Commissioner Hall. The publishing industry has lost 70,000 
jobs since the start of the recession.
    Chair Maloney. And how many were lost last month?
    Commissioner Hall. Last month it was about 8000. What this 
seems to indicate, there is an acceleration in the job loss in 
that industry. The first 10 months of the recession we were 
losing about two point--about 2500 jobs a month. The last 5 
months we are losing about 9000 jobs a month in that industry.
    Chair Maloney. Can you give us any information about 
whether alternative news providers--for example, online and 
news-only companies--have they seen the same type of job losses 
as traditional newspapers?
    Commissioner Hall. We have other information services, 
which includes Internet publishing. They have actually gained 
2900 jobs since December 2007.
    Chair Maloney. Okay. Well my time has expired and I 
recognize the Ranking Member.
    Senator Brownback. Thank you very much, Madam Chairwoman.
    What percent of our jobs are based on exports, 
Commissioner?
    Commissioner Hall. That is hard to say. I think it is 
likely--it is likely pretty consistent with the export share of 
GDP, which I don't have the numbers in front of me but I would 
guess it is somewhere around 8 or 9 percent of GDP, so I would 
guess it supports about 8 or 9 percent of the jobs.
    Senator Brownback. Do you break your data out by that type 
of category--exports that is?
    Commissioner Hall. No, it's really hard for us to do that 
because we really don't keep track of whether jobs are 
supporting goods that wind up being exported or not. That is a 
very hard thing to track.
    Senator Brownback. Do you break this down by region? I know 
you do state-by-state unemployment numbers. Do you have regions 
of the country that are being harder hit than other regions?
    Commissioner Hall. Yes. I would say that almost every----
    Senator Brownback. Every state is experiencing the 
downturn, but do you have more regionalized impacts?
    Commissioner Hall. Yes, I do have a little data on that. I 
can tell you which states have had the biggest impact.
    The states with the largest employment decline over the 
past 12 months are California, which has lost about 600,000 
jobs; Florida, 400,000 jobs; Michigan; Ohio; Illinois; Georgia; 
North Carolina; Arizona; and New York. So it is kind of a wide 
variety of states in a number of regions.
    Senator Brownback. So you do not have any sort of regional 
breakout of that. It seems like you cited some of the larger 
states, or the larger industrial based states.
    Commissioner Hall. Right. Yes, if you look at a percentage 
change you wind up getting states like Arizona, Michigan, and 
Nevada having the largest percentage drop in employment.
    Senator Brownback. And a lot of that would seem to be built 
around housing, or manufacturing?
    Commissioner Hall. I would say that is fair. This downturn 
is very broad, but the greatest job loss is in manufacturing, 
construction, and in temporary services.
    Senator Brownback. Do you do any projections on what the 
job loss would be if you see bankruptcy at one or two of the 
major auto manufacturers in the country?
    Commissioner Hall. We have not done an analysis like that. 
I think I have seen some numbers that seem relatively in the 
ballpark, but to be honest I do not recall what those numbers 
are at the moment.
    Senator Brownback. So the BLS doesn't do that sort of 
projection?
    Commissioner Hall. No, we don't.
    Senator Brownback. Because I have seen ones that look very 
significant as far as an increase in unemployment rates, if you 
were to see a liquidation bankruptcy, but a reorganization 
bankruptcy I guess would be a lot less predictable in what it's 
going to do.
    You were saying that two-thirds of the job loss happened in 
the last five months?
    Commissioner Hall. Yes.
    Senator Brownback. If you compare that to prior recessions, 
do you see a similar sort of trend mark where you have a fairly 
long period of decline, and then a precipitous falloff?
    It looked like to me what happened five months ago is that 
the housing market, the construction market recession expanded 
into the rest of the economy. It was like you had a stream here 
that was going, and it was quite a way down, and it just spread 
into the rest of the economy about five months ago.
    Do you see that in prior recessions? And can we learn 
anything from those prior trend lines?
    Commissioner Hall. Actually I don't think you see that in 
prior recessions. I think that is one of the unique things 
about this recession. It really was--it really was a relatively 
mild downturn for quite a few months which--I'm agreeing with 
you--which I would say is sort of consistent with the downturn 
in housing-related industries and construction.
    What has happened over the last five months is just, has 
just been credit market lockup. And that has just been a real--
a much more severe downturn.
    Senator Brownback. And this is unusual from prior 
recessions? Typically it is much broader going in?
    Commissioner Hall. Yes. Typically it does not take quite so 
long for a recession to get severe, and it is almost never this 
severe, as well. You know, I would have to say one of the 
things about recessions is they are all sort of unique. They 
all happen for different reasons.
    I do not see a lot of similarities between the recession 
and other recessions except that we are having a very severe 
downturn now, and that has happened before, but not so much 
with this mild recession leading off a severe decline.
    Senator Brownback. And you do not have a good thought as to 
what caused it to expand into the rest of the economy five 
months ago?
    Commissioner Hall. Well it did really coincide with the 
financial market----
    Senator Brownback. The big credit lockups?
    Commissioner Hall. Yes.
    Senator Brownback. Thank you.
    Chair Maloney. There has been some easing in the credit 
markets, which has been good news.
    I am concerned that families of unemployed or underemployed 
workers are going to be hit hard, especially hard during this 
recession. The fact that almost one in four unemployed workers 
have been unemployed at least six months, and that more than 
one in eight have been unemployed more than a year, does not 
bode well for these households.
    Is the duration of unemployment longer in this recession 
than in previous recessions?
    Commissioner Hall. Yes, it is. The main problem is that, 
typically during economic expansions--prior to the recession, 
the number of long-term unemployed typically starts at a much 
lower level.
    I think what we had was between the 2001 recession and the 
start of this recession the labor market did not have as strong 
a recovery as it has in the past. So we started from a much 
higher level of long-term unemployed.
    So now when we increase the number of long-term unemployed, 
that number has gotten to be quite high.
    Chair Maloney. And in previous long recessions like this 
one, what percentage of the unemployed leave the work force? Do 
you have any sense?
    Commissioner Hall. Yeah, I think I--it's significant. When 
you have a big increase in the number of unemployed, you also 
do have a lot of people, a big increase in the number of people 
who actually leave the labor force.
    One of the indications is we have folks who are marginally 
attached to the labor market. These are folks who have stopped 
looking for a job, but they want a job and they have looked 
within the past year, and that number has gone up quite a bit. 
We are at something of about 2.1 million marginally attached 
right now.
    Chair Maloney. Thank you. I yield back to Congressman Brady 
for five minutes.
    Representative Brady. Thank you, Chairwoman, very much.
    Commissioner, is there anything--any unusual statistical 
issues, regarding seasonal adjustments, or the survey week, 
that may have affected the data we see today?
    Commissioner Hall. No. Some of the earlier data was 
difficult for us to adjust to over the last five months because 
it was such a severe drop, but we have now had five months of 
this and we have adjusted.
    Representative Brady. Did any industry show employment 
increases in March?
    Commissioner Hall. Only actually the health care industry 
had some slight growth, although it was essentially unchanged.
    Representative Brady. Government?
    Commissioner Hall. Government was essentially unchanged. 
There was actually a slight decline of something like 5,000, 
but that was really essentially unchanged.
    Representative Brady. We are at 8.5 percent unemployment 
right now. Do you expect this recession to approach or top the 
10.8 percent figure we had in the 1980s?
    Commissioner Hall. Sure. I wouldn't want to try to project 
that since we produce the numbers. All I can tell you is that, 
at least in this report there is no sign of the decline slowing 
down.
    Representative Brady. America is so amazingly resilient as 
a country but it seems to me there is such a lack of confidence 
underpinning this recession, a lack of confidence in Wall 
Street, a lack of confidence in the bailouts, a lack of 
confidence unfortunately in Congress itself.
    This new budget that Congress is considering unfortunately 
feeds I think into that lack of confidence mainly because it 
has such rosy economic assumptions that underpin the 
President's budget and the Democrat budget as well. Dealing 
with the budget in five-year projections is sort of like a moon 
shot. The trajectory is long and if you are off at the 
beginning you are way off as you go forward.
    The big worry that is growing among economists and I think 
the public is we are going to be way off on debt and deficit in 
next year, which will only get worse as we go forward.
    Is there in the recent labor market trends any evidence 
that supports the Administration's economic forecast that we 
would only have an 8.1 percent unemployment rate this year, 
since we are already much higher than that?
    Commissioner Hall. You know, I don't know what to make of 
the forecast. I don't really want to comment on the forecasting 
very much. I will say it is very difficult to forecast at any 
time. Right now it is especially difficult to forecast.
    Representative Brady. But may I ask this, Commissioner, I 
agree with you on that. You know, if you had to guess between, 
or choose between the Administration's forecasts of only 1.2 
percent contraction this year versus the Blue Chip forecast 
which is twice that, 2.6 percent? You know, if you were staking 
your reputation on it, which do you think will prove more 
accurate?
    Commissioner Hall. Again, I don't want to say. But I can 
tell you that the difference--that difference in growth would 
imply a rather different level of job loss or job gain. It 
would have a pretty significantly different result in the labor 
market going forward.
    Representative Brady. The economy would have to increase 
dramatically to only contract by 1.2 percent this year, 
correct? Since we've had five straight losses of 600,000 jobs 
or more each month, how do you possibly get to that rosy 
scenario?
    Commissioner Hall. It would require a significant 
improvement. The current labor market is consistent with pretty 
significant decline in GDP right now.
    Representative Brady. I can find few economists who believe 
that we can meet the rosy economic assumptions that are in the 
President's budget. The result is, I think we'll prove that we 
are closer to a $2 trillion deficit this year, and that the 
rosy scenarios underpinning the budget will end up costing us 
much higher debt, much higher deficit, again all of which feed 
into I think the lack of confidence in this government and how 
it is working.
    So that is my main concern as we look at these labor 
numbers. They just do not prove out to be rosy, as the new 
Administration is predicting.
    With that, I would yield back, Madam Chairman.
    Chair Maloney. I just want to note that after eight years 
of George Bush's leadership, this country inherited a series of 
records. Only they were the wrong kinds of records: record 
deficits, record trade deficit, largest deficit in history.
    And President Obama has been working very hard to turn that 
around and move forward in a positive way. But this hearing is 
not about politics. It is about understanding the economy more. 
But if you are going to attack the Democrats, I am going to 
attack the Republicans back, and the President----
    Representative Brady. Well, Madam Chairman, Madam Chairman, 
I actually was not. I was really questioning the economic 
forecasts under the budget----
    Chair Maloney. Okay.
    Representative Brady [continuing]. Which again are just so 
rosy that they are going to hide some major deficits----
    Chair Maloney. Well they inherited----
    Representative Brady [continuing]. And I would point out 
for every record of the President----
    Chair Maloney. They inherited major deficits.
    Representative Brady. They did, but they inherited it from 
a Democratic Congress, and that's I think what fails to be 
said. And I think you're right to criticize President Bush for 
the deficits, but it looks like this new President will double 
that in only about three years. That is the worry I think we 
have.
    Chair Maloney. I will point out that when the former 
President took office he inherited a $5.6 trillion ten-year 
projected surplus. And now we have these raging debts and 
deficits that we are trying to address, plus a dire economic 
downturn.
    Let's turn to the underemployment numbers. Last month the 
number of Americans working part-time because they could not 
find full-time jobs hit 8.9 million, the highest level since 
the Bureau of Labor Statistics began collecting information on 
involuntary part-time work.
    Is the number of involuntarily part-time workers still 
increasing?
    Commissioner Hall. Yes, it is. An additional 423,000 became 
involuntary part-time workers in March.
    Chair Maloney. And does this show any signs of slowing 
down?
    Commissioner Hall. No, it doesn't.
    Chair Maloney. And the broadest measure of unemployment 
published by the BLS shows that 15.6 percent of workers were 
under-employed. Is it fair to say that this recession is 
characterized by remarkably high levels of underemployment?
    Commissioner Hall. I would have to say, yes. The trend in 
the unemployment rate and in the job loss, and then in the rise 
in some of the other measures of underemployment, are all 
consistent with a fairly deep recession.
    Chair Maloney. How have women fared as the economy has shed 
jobs this year? Are they losing jobs at a faster pace than men, 
or a slower pace? How have they fared?
    Commissioner Hall. 23 percent of the job loss in this 
recession so far is borne by women. In say the last five months 
through February 2009, almost 30 percent of the job loss was 
from women. That is actually higher than most recessions. Last 
recession at the peak of the job loss women lost 25 percent of 
the jobs. In the 1990 recession, women lost less than 4 percent 
of the jobs.
    Chair Maloney. Wow. And what about women heads of 
households? Is there a difference, a striking difference, or 
any difference at all in terms of job loss?
    Commissioner Hall. The unemployment rate for women heads of 
household started higher and it has risen more. It started 
about 10.8 percent--up to about 10.8 percent right now, and 
it's risen about 3.7 percentage points over the last 12 months. 
You compare that to women who are married, their unemployment 
rate is about 5.4 percent right now.
    Chair Maloney. In what industries have women lost the most 
jobs and in what industries have they been more successful in 
not losing jobs?
    Commissioner Hall. Since December, the industries with the 
largest job loss by women is professional business services. 
They lost about 424,000. Manufacturing lost about 416,000. 
Retail trade lost 223,000. And financial activities lost 
205,000.
    Chair Maloney. Have the job losses in the retail sales 
sector expanded to other segments of the sector?
    Commissioner Hall. Yes. A lot of the downturn started in 
automobiles, and now it has expanded throughout the retail 
trade sector.
    Chair Maloney. And is it fair to say that job losses in the 
service sector are accelerating?
    Commissioner Hall. Yes. In fact, that is one of the things 
that makes this recession different from the past two 
recessions. Over the past five months the service sector has 
borne over half the job loss. And in the past two recessions, 
services only bore less than a quarter of the job loss.
    Chair Maloney. Do you think that this erosion will impact 
women's employment particularly in the service sector?
    Commissioner Hall. I think that's fair to say. In some of 
the sectors where you have traditionally more impact from a 
recession, like manufacturing for example, women aren't 
represented quite as highly as in services. So I think that is 
part of why the women job loss is a bit higher this recession 
so far.
    Chair Maloney. Do you have any data to tell us something 
about African American female headed households? How are they 
doing compared to white female headed households?
    Commissioner Hall. In 2008, African American head of 
households, the unemployment rate was about 10.9 percent. And 
for white female heads of households the unemployment rate was 
about 6.8 percent.
    Chair Maloney. My time has expired and I recognize Senator 
Brownback for five minutes.
    Senator Brownback. Thank you very much.
    Getting back to this credit lockup that you were 
identifying Commissioner, as being one of the things that 
really accelerated this trend line down, there has been some 
indication that credit markets are loosening up. Are you 
tracking that? Do you see any positive impact--apparently not--
in any of the numbers you are seeing yet on impacts in the 
credit market getting somewhat looser?
    Commissioner Hall. Yes, I have to say I'm not sure I see 
anything in the labor market. My expectation would be that if 
the credit market eases up we would see some improvement in 
some of the other numbers, the consumer confidence going up, 
and maybe consumer spending increasing, and that would have to 
happen probably before we would start to see an improvement in 
the labor market.
    Senator Brownback. If I could suggest to the Chairwoman, 
that this is such a key part of what has accelerated and made 
this recession so much more difficult, in the last week I have 
had builders from my State and region and financial 
institutions both pointing their finger at each other saying 
that, well, we would be building right now but we can't get any 
credit.
    And the financial institution is saying, well, the 
regulators are not letting us lend. They are being much more 
strict on this.
    It seems like to me it would be a great time for us to hold 
a hearing with the regulators, and maybe some of the builders 
or financial institutions, and quiz them at length. Because 
they are all pointing at each other saying this is the reason 
credit is not flowing.
    And the Congress has pumped billions, hundreds of billions 
of dollars into trying to get this credit market going again. 
And as much as we have put into it, it does not seem to really 
be moving much again, and that this might really be something 
that this committee would be uniquely situated to try to bring 
those factions together to get at the heart of what this issue 
is.
    Chair Maloney. Would the gentleman yield?
    Senator Brownback. Yes.
    Chair Maloney. I truly believe that is a very positive 
suggestion. I likewise serve on the Financial Services 
Committee and we did hold a similar hearing because of the 
conflicting statements that are out there. You hear from 
everyone in real estate: you go to the bank and it is 
impossible to get a loan on real estate. And we hear from some 
bankers that the Fed is telling them not to loan to real 
estate.
    Yet we know that real estate really employs a great number 
of people. I think it is an excellent idea, and I look forward 
to working with the Ranking Member in putting that together as 
quickly a possible.
    Senator Brownback. Thank you. Because I just----
    Chair Maloney. I yield back.
    Senator Brownback [continuing]. I keep getting from all my 
institutions this pointing past each other on it, and yet you 
are saying this is at the heart of what has really accelerated 
this problem.
    One of the things, Commissioner, do you look at--are you 
watching any trip wires out there that you look at and you say: 
Now if this happens, we could really see this accelerate, or 
even get worse than the situation is right now?
    I have asked you about bankruptcy in the auto sector. Are 
you looking at anything that might happen overseas? Anything 
that might happen here that you would consider a trip wire to 
accelerate this into even a worse situation?
    Commissioner Hall. To be honest, I'm not sure there are too 
many trip wires that haven't already been tripped. This is a 
very quickly declining labor market.
    Senator Brownback. So nothing in that--but obviously if you 
have bankruptcy in the auto industry, I mean because people are 
pointing to that saying this would be a big one, particularly 
in some of these states that are already hard hit. Are there 
any others out there that you would----
    Commissioner Hall. No, not really. I think in large part 
because we are so focused on the labor market and dealing with 
the data that I try not to look too far forward and try to 
guess what the data is going to look like.
    I guess one of the biggest concerns is that things just do 
not improve. I mean, this is falling very quickly right now and 
I'm not sure the labor market could fall any quicker than it is 
right now. So I think maybe the biggest concern is that this 
continues.
    Senator Brownback. I was noting--one of the staff members 
was saying to me that the historical experience has been that 
the faster and deeper the job losses, the quicker the recovery, 
has generally been in history. Is that correct?
    Commissioner Hall. That is correct. It is hard to think of 
that as a hard-and-fast rule simply because we have not had all 
that many recessions. So it is really hard to predict that. But 
in the past, deeper recessions have had quicker recoveries.
    Senator Brownback. Now this one is unusual where it has 
been long, and initially shallow and then going deep, from what 
you have described.
    Commissioner Hall. Yes.
    Senator Brownback. And you don't know of an historical 
recession that has really tracked along that same line?
    Commissioner Hall. I don't think so. To be honest with you, 
I probably ought to look more closely at some of the past 
recessions to see if there's been a similar pattern, but I 
don't think there has been.
    In fact, to be honest with you I think for the first eight 
months of the recession I am not sure that it was clearly a 
recession. I think we had job loss and it was a downturn, but 
things were mild enough that it was probably a tough call for 
the NBERs as to whether there was a recession or not until we 
had the credit market lockup.
    Senator Brownback. Well again I think this is the issue 
really to track for us, is this credit market lockup where the 
Chairwoman who, her District is a lot of the financial center 
of the country, I think would be quite uniquely positioned to 
be able to dig into some of that. And it is obviously one of 
the keys to be able to get this going.
    My concern is, I am just not seeing it unlock at our level. 
It may be starting to loosen up some at the international 
level, I don't know. Really it hasn't loosened that much. But 
we're certainly not seeing the sort of credit activity in the 
Midwest, in my estimation, that is going to bode for any sort 
of recovery in any near-term fashion.
    Thanks for the time.
    Chair Maloney. Congressman Brady.
    Representative Brady. Thank you, Chairman.
    I think obviously the major proponent of the new 
Administration's recovery plan is the stimulus package. A lot 
of money is being pushed out the doors these days.
    The centerpiece of that Stimulus Proposal was a tax cut 
called ``Making Work Pay Tax Credit,'' aimed at consumers and 
working Americans. It kicked in this week, although I don't 
think most people noticed the extra $1.10 a day in their 
paycheck.
    To be fair, it is too early, I think, to be expecting the 
stimulus to be showing up in these unemployment numbers, but 
when do you expect the impact from this extra $1.10 a day in 
paychecks to show up in either lowering the unemployment 
number, spurring consumption? When will we see that impact?
    Commissioner Hall. It is not clear that we will ever be 
able to see it in the labor market because it is such a--
especially when we are in such a decline, sort of parsing out 
the impact of something like a tax cut is very difficult to do. 
That is probably the sort of thing that, on a research basis a 
few years from now we may be able to make some estimates of 
that, but it would be hard to guess. And I am not sure that we 
will see it in the data for sure as the data comes out.
    Representative Brady. I may not have understood. In the 
Stimulus package there was a projection of millions of new 
jobs, the centerpiece of which was this Making Work Pay Tax 
Credit. You are saying you won't be able to measure the job 
creation from that component?
    Commissioner Hall. I think it would be difficult to do, and 
it is not something that we are likely to be able to do as the 
data comes out. It doesn't mean the impact is not in there, but 
that is something that would be rather difficult for us to 
measure, and probably not our role to measure.
    Representative Brady. Would you see any consumption impact?
    Commissioner Hall. That would be the hope. In theory that 
is how that would work. It would be encouraging consumer 
spending. And certainly a decline in consumer confidence and 
the resulting decline in consumer spending is a big part of 
this economic downturn.
    Representative Brady. Well will this new tax credit, do you 
think it will show up in stronger consumer confidence here? 
Most people that I have talked to this week do not even know 
they are getting any type of tax change, certainly are not 
running off to the mall with their new-found $1.10. I think 
that is part of what was hoped by the Administration, was that 
this would spur some type of consumer confidence.
    I have been looking at a number of economic forecasts that 
show that will not likely happen. I would like to submit for 
the record, Madam Chairman, a study by four economists--John 
Cogan, Tobias Cwik, John Taylor, and Volker Wieland--that deals 
with an estimate of some of the impact of the stimulus, and 
some of the concerns that it may not create the jobs that we 
had hoped. I would submit that for the record.
    [The report entitled ``New Keynesian versus Old Keynesian 
Government Spending Multipliers'' on p. 58.]
    Representative Brady. With that, I would yield back.
    Chair Maloney. Thank you so much.
    I would like to follow up on the line of questioning of our 
Ranking Minority Member, Senator Brownback. Could you give us 
some indication of the numbers in the housing market?
    There was one report that said housing starts were up 5 
percent. Could you give us a sense for single family, for 
commercial, for whatever, a sense of what is happening in the 
housing market? I guess you can't comment on whether or not it 
is tied to the credit freeze, but could you give us an idea 
where we stand?
    Commissioner Hall. Sure. I don't know--that is not data 
that we produce, but that was a one-month uptick, and it is 
certainly a good sign, but it also is again only one month.
    Housing starts have gotten to a fairly low level, below 
half a million a year is a fairly low level, but to be honest 
that's a pretty volatile series. So I am not sure yet we have a 
clear change in trend in the housing market.
    Chair Maloney. Well who collects that data?
    Commissioner Hall. The Census Bureau does.
    Chair Maloney. Pardon me?
    Commissioner Hall. The Census Bureau.
    Chair Maloney. The Census Bureau. And also I am hearing 
that there is no commercial activity, that there are no loans 
in any shape or form for commercial investment. Do you have any 
indication for new starts for shopping centers, or businesses, 
or small businesses?
    Commissioner Hall. I will say our downturn in construction 
employment is in both residential and nonresidential. In fact, 
nonresidential right now is probably shedding slightly more 
jobs than residential. So that is consistent with that.
    Chair Maloney. I would like to ask a few questions about my 
home State of New York, and I welcome my other colleagues to 
ask specific questions on their states.
    I notice that employment in state governments declined in 
December, January, and February. The Governor of New York has 
already told me that New York State employees were going to 
face furloughs, or layoffs because of state budget problems.
    With states now in recession, is that a problem that all 
governors are facing?
    Commissioner Hall. I would say the job growth in state 
government, and even local government, both things have really 
flattened out right now. So I would say nationwide it is pretty 
broad that there's not that much growth, certainly not in state 
or local government noneducation.
    Chair Maloney. In my home state of New York, the 
unemployment rate was 7.8 percent in February, a jump of .8 of 
a percentage point from January. In New York City unemployment 
jumped from 6.9 to 8.1 percent.
    Are these changes similar to the changes in the national 
unemployment rate?
    Commissioner Hall. Over that period, they're a bit higher. 
Nationally the unemployment rate over that period rose by half 
a percentage point, which is a little bit less than the .8 for 
the State and 1.3 percentage point for the City. But it's in 
the same ballpark with respect to the statistical change.
    Chair Maloney. On the national level, as you reported, 
there is a sharp increase in the pace of job losses in recent 
months. How does that compare to the payrolls in New York State 
and New York City, and in other states and cities in general? 
Is that the same trend?
    Commissioner Hall. The trend is similar. In New York, job 
loss between January and September averaged about 2000 a month. 
And since then it has averaged about 29,000 jobs lost per 
month. So that is similar to the national number, at least in 
the trend.
    Chair Maloney. How does New York and other states compare 
to the Nation as a whole during recessions? Have past 
recessions typically lasted longer at the state level or do 
they trend at the same pace? What is the difference, if any?
    Commissioner Hall. It actually has varied by recession. 
Although recently the pattern of job loss in New York State has 
been similar to the national numbers, the job loss has actually 
been a bit milder than the national number.
    New York City has lost about 1.2 percent of their jobs 
since the recession started. Nationally we have lost about 3.2 
percent of the jobs through February. So that has been milder 
this recession.
    The last recession, in terms of length New York and the 
national both lost jobs about the same time period, but the job 
loss for New York was more severe than the U.S. number. So we 
have had sort of a different experience.
    Chair Maloney. Thank you. I yield back and recognize my 
colleague, Congressman Brady, for five minutes.
    Representative Brady. Well thank you, Madam Chairman.
    Commissioner, obviously in these financial times having 
good numbers in the government is really critical, so making 
sure that the Bureau of Labor Statistics if fully funded is 
something that has bipartisan support.
    Are you concerned about the funding levels you have for 
your statistical programs?
    Commissioner Hall. Actually our 2009 budget came in at a 
significant increase. That was very much needed. So I would say 
that we are now at a good level. We have actually had some 
troubles, and I think we are in a position where we can now 
sort of rebuild our capability. I think we were getting a 
little stretched.
    But our budget right now at the 2009 level is a good, solid 
budget for us.
    Representative Brady. Are there any new models, new 
measurements, new approaches you are taking that could help us 
as we sort of gauge the economy going forward?
    Commissioner Hall. We always have a program of research 
where we are looking for ways to improve our measurement, and 
ways to increase the efficiency of our measurement.
    In terms of actually implementing them, to be honest the 
last few years we have been somewhat in retreat. We have been 
trying very hard to maintain the quality of our programs. So we 
have not really been able to implement much in terms of 
improving our measurement in recent years, but we hope that 
will change in the future.
    Representative Brady. Are there any changes you anticipate? 
Again, exports and trade have been up to this point one of the 
shining spots in our economy, our ability to sell American-made 
products around the world. At one point it accounted for almost 
60 percent of our economic growth.
    Obviously that has cooled. The WTO estimates that we will 
see a 9 percent decrease in world trade flows this year. OECD 
estimates that we will see a 4 percent or so contraction among 
those member countries.
    Do you have state-of-the-art modeling, or statistical 
programs that can help measure what the impacts or the 
predictive future is of some of our exports, some of our 
ability to sell outside the country?
    Commissioner Hall. We really don't very much because we are 
so focused on the labor market. I do know some of the other 
statistical agencies have some what I would call input/output 
models where they can try to track the jobs, either directly or 
indirectly supported by exports.
    The Bureau of Economic Analysis, for example, has something 
like that, but we typically do not do that.
    Representative Brady. Can I ask why? It seems to me you do 
a good job, whether it's construction, housing, real estate. 
You delve pretty deeply into business investment, the financial 
sector, a number of those sectors. Could you develop for this 
committee and for Congress some of those impacts from experts 
so we can track again what is becoming a fairly good sized 
driver of our economy?
    Commissioner Hall. Certainly on a research basis people can 
make some estimates of this. Part of the big challenge is that 
products are made in so many different places, both--the 
content can be made throughout the country. Export contents 
sometimes has import content. Export sometimes has import 
content. So it is very hard to track all these pieces that go 
into a product.
    So it is somewhat a challenge that has been created by the 
changing nature of production in modern economies.
    Representative Brady. But you do surveys, don't you, to 
identify trends in housing, financial, areas----
    Commissioner Hall. Sure.
    Representative Brady [continuing]. That can be extremely 
complicated, as well.
    Commissioner Hall. Sure, but----
    Representative Brady. Why don't we do that?
    Commissioner Hall. We do do that, but if you think about 
it, when we collect employment at a particular establishment it 
is quite--that establishment, they don't even know how much of 
their output winds up in exports. You know, they know they 
produce it. They know they sell it. But as to whether it winds 
up being export-driven, or domestically driven, they often 
don't know that. So it is very difficult for us to get that 
information.
    Representative Brady. But, you can measure more accurately 
those who are actually exporting those U.S. products, and goods 
and services. Correct?
    Commissioner Hall. Yes. Correct.
    Representative Brady. Well could you try to identify for us 
some means where we can develop better numbers, better views, 
better analysis of that economic sector? It is an important 
one. I fear we ignore it. I think it is important overall to 
our recovery and we ought to be taking a closer look at it.
    Commissioner Hall. I agree. We will.
    Representative Brady. Thanks.
    Chair Maloney. Senator Casey, welcome.
    Senator Casey. Madam Chair, thank you very much. And 
Commissioner, thank you for your testimony.
    I want to try to cover two or three subject areas. One area 
in particular that I want to start with is with regard to 
minority unemployment.
    In terms of the numbers, the African American unemployment 
rate is 13.4 percent? Is that right?
    Commissioner Hall. Let me catch up here one second, I'm 
sorry.
    Senator Casey. Sure.
    Commissioner Hall. That sounds correct.
    Senator Casey. I may be looking at a February number.
    Commissioner Hall. I'm sorry, I've got to get my--yes, it 
is 13.3 percent. Thank you.
    Senator Casey. Okay, 13.3. Now from what I understand, if 
you look at the rate from February 2008 to February 2009, the 
African American number has gone from about 8.4 to 13.3?
    Commissioner Hall. Yes.
    Senator Casey. So it is up five full percentage points, 
which is----
    Commissioner Hall. Yes.
    Senator Casey [continuing]. Hard to comprehend. And the 
same is true of the Latino rate. According to what I have, it 
went from February 2008 to February 2009, from 6.3 to 10.9. 
Does that sound right?
    Commissioner Hall. Actually, I think we are up to 11.4 
percent.
    Senator Casey. 11.4.
    Commissioner Hall. That's about right.
    Senator Casey. So they are both up--for African Americans 
and for Latinos--basically five full percentage points. Is 
that----
    Commissioner Hall. Close to five percent.
    Senator Casey. Close to five. Which is stunning and 
disturbing. No need to say more. These figures are the source 
of significant worry for so many people. I can't even 
comprehend or imagine what they are going through. It is an 
awful increase for one year.
    College. I wanted to ask you about that. There is a report 
by the National Center for Public Policy and Higher Ed about 
the rising cost of college. The report found that published 
college tuition and fees increased by 439 percent from 1982 to 
2007, while median family income rose 147 percent over the same 
period.
    So college costs have gone up by 439 percent in 25 years; 
and median income has only gone up by 147 percent. I am not 
asking you to verify that, but using this report as a basis for 
my next question.
    Tell us from what you can surmise from your data and 
reports--not just this month but every time you appear--about 
the difference between having a college degree versus having 
only a high school degree on of the impact of the recession on 
individuals?
    Commissioner Hall. College-educated workers have huge 
advantages in the labor market. It is not just during 
recessions, but even during normal times. The wages are higher. 
Labor force participation is higher. And their unemployment 
rate is lower.
    When you go into a recession, college educated workers, 
they have a rise in the unemployment rate, and we've seen a 
rise in the unemployment rate, but it rises higher for lower-
educated groups.
    Senator Casey. Is there a number you have on those workers?
    Commissioner Hall. Sure. The unemployment rate for those 
with a bachelor's degree right now is about 4.3 percent. And 
the unemployment rate for just high school grads is about 9 
percent. So it is twice as high.
    Senator Casey. Thank you for that information.
    And finally a question on manufacturing jobs. In our State 
of Pennsylvania we have lost, by one estimate, 200,000 
manufacturing jobs since 2001. And I know the Nation has 
experienced a similar sharp decline, as well.
    Are there subparts, or subsectors, of manufacturing job 
losses that are particularly severe or pronounced in the 
national economy? Do you have any data on those segments, or 
any sense of it?
    Commissioner Hall. Actually, automobile-related industries 
have been particularly well hit, but I would have to say that 
virtually all portions of manufacturing have now seen job loss. 
So it is very widespread, but it is particularly heavy in 
automobiles.
    Senator Casey. Thank you, very much.
    Chair Maloney. I would like to thank you for your 
testimony, and all the panelists, and I thank my colleagues, 
and this meeting is adjourned.
    [Whereupon, at 10:30 a.m., Friday, April 3, 2009, the 
hearing before the Joint Economic Committee was adjourned.]
                       SUBMISSIONS FOR THE RECORD

     Prepared Statement of Representative Carolyn B. Maloney, Chair
    A few glimmers of hope have surfaced in the economy in recent weeks 
as factory orders posted gains last month, a key manufacturing index 
rose and credit markets have begun to thaw. But today's jobs report 
highlights the fact that there are virtually no bright spots yet in the 
labor market.
    In each of the last five months, employers have slashed about 
600,000 or more jobs--staggering job losses totaling more than 5 
million since the start of the recession. The unemployment rate now 
stands at 8.5, a jump of 3.6 percentage points since the downturn began 
over 15 months ago. And, the broadest measure of unemployment or 
underemployment that the BLS publishes is now at 15.6 percent.
    For the first time in at least 30 years, every state in the Nation 
is in recession. The state and local unemployment numbers for February, 
which were released recently, show that seven states already have 
unemployment rates over 10 percent. Although my home state, New York is 
not one of those states, the unemployment rate in New York state jumped 
0.8 percentage points last month--the largest one month jump in almost 
20 years. And the 1.2 percentage point jump in unemployment in New York 
City represents the largest spike that New York City has seen since BLS 
started collecting this data.
    I am particularly concerned by the long duration of unemployment 
faced by a great number of workers and the disruptive impact that this 
long term unemployment has had and will have on those workers and their 
families. Almost 1 in 4 unemployed workers is experiencing an 
unemployment spell of 6 months or longer--the highest level in over 25 
years. And of those long term unemployed workers, more than half of 
them have been looking for work for over a year. This type of long term 
unemployment is straining families and forcing them to take on more 
debt as the financial pressure of making ends meet mounts.
    Even before job losses began accelerating, many families were 
increasingly holding balances on their credit cards just to pay for 
basic household necessities. The most recent data available from the 
Survey of Consumer Finances shows that a increased proportion of 
families--especially middle class families--have been accumulating 
larger mountains of debt on their credit cards.
    Because of this increased reliance on credit cards--especially by 
families of displaced workers, it is even more important that 
legislation concerning credit cards is put into place immediately. The 
Credit Cardholders' Bill of Rights was voted out of subcommittee 
yesterday and will be moving through the House later this month. I 
remain hopeful that the Credit Card Accountability, Responsibility and 
Disclosure Act, which was voted out of the Senate Banking Committee 
this week, will be on the Senate floor without delay. Both of these 
bills would prohibit certain current practices that are hurting 
financially strapped cardholders.
    The recovery measures that Congress passed and President Obama 
signed into law in his first 60 days in office are just beginning to 
work their way into the economy. Speaker Pelosi announced this week 
that the middle class tax cuts have now gone into effect, so families 
will see an increase in their take home pay. A temporary increase in 
food stamp benefits also goes into effect this month, with benefits set 
to rise as much as $80 a month for a family of four. Both of these 
measures should provide a much-needed boost to consumer spending,
    Last night, both the House and the Senate passed their budget 
resolutions. A budget is fundamentally about priorities and our 
blueprint builds on our recovery efforts by making investments in 
health care, renewable energy, and education to put people back to work 
and strengthen our economy for the future.
    Today's grim unemployment numbers underscore the wisdom of the 
stimulus package that Congress worked so hard to pass quickly. We will 
continue our focus on making sure that the economy gets working again 
and examining ways to help struggling families.
                               __________
    Prepared Statement of Senator Sam Brownback, Ranking Republican
    Thank you Chairwoman Maloney for arranging today's hearing and 
thank you Commissioner Hall for testifying today.
    Unfortunately, today's employment report on labor market conditions 
in March brings more bad news: employers shed 663,000 payroll jobs in 
March and the unemployment rate rose to 8.5% from 8.1% in February and 
5.1% a year earlier. In total, we have lost 5.1 million payroll jobs 
since the beginning of the recession and 3.3 million jobs in the past 
five months alone. Behind these numbers is a great deal of dislocation, 
pain, and suffering in American families.
    Given the severity of the economic downturn that we face, and 
efforts already under way to try to offset the downturn, it is clear to 
me that the very last thing that we want to do is raise taxes on 
American businesses and introduce uncertainty into employers' plans. 
Yet that is precisely what Congress and the Administration have been 
contemplating. And, that is precisely what the Administration's 
proposed budget will do. And make no mistake, the budget that we are 
currently considering, by initiating a move toward socialized health 
care and taxes on carbon emissions, will ensure that 100% of Americans 
can expect to pay higher taxes in the future. The claim of the 
Administration that 95% of Americans will not see their taxes raised by 
even a dime is about as solid a AAA rating on a mortgage-backed 
security turned out to be.
    The economy needs help. But, rather than actually stimulate the 
economy by providing improved incentives to work and invest, we have 
been devoting trillions of dollars of taxpayer money to expanding and 
creating permanent, long-term government spending programs and income 
redistribution mechanisms. We have budget proposals from the 
Administration and Democrats in Congress that seek to impose higher 
taxes on small businesses, higher taxes on income from capital, begin 
implementation of a mechanism that will tax anyone who uses carbon, and 
begin a process of nationalizing health care, among other things. This 
is precisely the wrong time to raise taxes and inject uncertainty about 
what taxes are going to be in the future.
    In the face of a severe downturn in the economy and significant 
declines in stock values and homeowner wealth, it is almost 
inconceivable that there are those who wish to raise taxes. What will 
higher taxes on small business owners do to job creation? What will 
higher taxes on dividends and other forms of capital income do to stock 
values and the portfolios of every American family? What will new 
carbon taxes, under the name ``cap and trade,'' do to our already 
struggling industrial base? Now is clearly not the time to increase 
taxes and chase more jobs and production offshore.
    Judging from calls that I receive from my Kansas constituents and 
judging from stock markets, where votes are placed with private 
investments, the verdict on how we are handling our Nation's financial 
and economic crises is not positive. Some of my constituents have 
expressed unwillingness to commit to new investments and expansions of 
their businesses because of growing uncertainty since the beginning of 
the year--uncertainty about how high their taxes will be raised; 
uncertainty about how much a cap-and-trade carbon policy will translate 
into higher energy taxes; uncertainty about the extent to which health-
care policies will translate into new government mandates and price 
controls; uncertainty about whether mortgage contracts may in the 
future be subject to judicial rewrites in bankruptcy courts; and 
uncertainty about rules of the workplace, including how workers and 
businesses decide on union representation.
    There are many people in the heartland who are genuinely and 
rightly upset that they are now being asked to support a permanent 
expansion of government and to support the highly leveraged speculative 
bets placed by the big financial institutions that are ``too big to 
fail.'' Many of my constituents are also experiencing a great deal of 
uncertainty about how far the Administration will try to reach in its 
attempts to restructure the economy and vastly expand the scope of 
government intervention into their lives. We need to halt the mad dash 
to big government as the solution to all of our problems and put 
incentives in place that help Americans grow their businesses, invest, 
create jobs, and prosper. Higher taxes, and ever-expanding government, 
and creation of uncertainty are not the way to provide those 
incentives.
    I look forward to the testimony of Commissioner Hall.
                               __________
         Prepared Statement of Kevin Brady, Ranking Republican
    I would like to join in welcoming Commissioner Hall before the 
Committee this morning.
    The employment data released this morning show the impact of the 
deepening recession. Payroll employment declined by 663,000 in March, 
with losses broadly shared among major industry groups. The 
unemployment rate increased to 8.5 percent, and current trends suggest 
that further increases are likely in coming months.
    The job figures reported today add to the growing body of evidence 
indicating that the Administration's economic forecast is much too 
optimistic. The unemployment rate is already significantly above the 
Administration's forecast for all of 2009. The Administration projects 
that real GDP will fall 1.2 percent in 2009 and rise 3.2 percent in 
2010, compared with a Blue Chip Consensus forecast of a decline of 2.6 
percent in 2009 and an increase of 1.9 percent in 2010. The CBO 
forecast of a 3.0 percent decline in 2009 GDP also shows how far off 
the Administration is likely to be for 2009.
    The Administration's unduly optimistic economic assumptions are a 
major problem. These optimistic assumptions are a key foundation of the 
President's budget proposals, and lead to artificially low deficit and 
debt projections. No wonder The Economist called the assumptions in the 
Administration's budget ``deeply flawed'' in an article entitled, 
``Wishful, and dangerous, thinking.'' Their effect is to make the 
Administration's expansive new spending proposals look less threatening 
than they actually are.
    The reason the Democrats' Congressional budget resolution got so 
far off track is that it is based on the President's budget proposals. 
This is why a variety of accounting gimmicks are needed to hide the 
true costs of the Administration's dangerous spending spree in the 
Democrats' House budget resolution. As the Washington Post said last 
week, in this resolution ``Congress deals a blow to `honest 
budgeting.''' The Democrats now are attempting to shoehorn expensive 
Administration proposals based on unrealistic economic assumptions into 
a House budget resolution that uses more realistic economic assumptions 
from the CBO.
    A realistic economic forecast would indicate that the fiscal 
situation is already very grim, with exploding deficits and debt for 
the foreseeable future. According to a recent study of many financial 
crises by Professors Kenneth Rogoff and Carmen Reinhart that has become 
an instant classic, the U.S. national debt can be expected to increase 
by $8 trillion to $9 trillion over the next three years. According to 
Rogoff, inflation of 8 to 10 percent is one likely way the government 
will end up financing the huge run-up in federal debt. He compares the 
coming economic environment to the 1970s, which was a time of rising 
inflation, weak economic growth, and rising unemployment.
    The Democrats' budget will add yet more deficit spending and debt 
to the huge amounts of each already in the pipeline. The result will be 
much higher taxes and inflation in the future, and lower economic 
growth. Higher inflation in coming years will further reduce the 
American standard of living as incomes and retirement funds are further 
eroded. The last time Democrats controlled both ends of Pennsylvania 
Avenue for a significant length of time was in the 1970s and 
stagflation was the result, so nobody should be surprised if history 
repeats itself.
    I'm pleased to welcome the panel of witnesses before us today. TARP 
certainly raises a number of very troubling issues, but the central one 
is why we still do not have a credible, effective, and transparent 
financial rescue plan in place.
                               __________
      Prepared Statement of Keith Hall, Bureau of Labor Statistics
    Madam Chair and Members of the Committee:
    Thank you for the opportunity to discuss the employment and 
unemployment data we released this morning.
    Labor market conditions continued to deteriorate in March. Total 
nonfarm payroll employment decreased by 663,000, and the unemployment 
rate increased from 8.1 to 8.5 percent. Since the beginning of the 
recession in December 2007, job losses have totaled 5.1 million, 3.3 
million of which occurred in just the past 5 months. These declines 
have been widespread across industry sectors, but particularly sharp in 
manufacturing, construction, and temporary help services. Together, 
these industries have accounted for nearly two-thirds of the job loss 
during the recession.
    In March, manufacturing employment fell by 161,000, with job losses 
spread throughout the sector. Since the start of the recession, 
manufacturing has shed 1.5 million jobs, with about 60 percent of the 
loss occurring in the past 5 months. In March, the average workweek in 
manufacturing decreased by two-tenths of an hour.
    Construction employment declined by 126,000 over the month. Since 
the beginning of the recession, employment has dropped by about 1.1 
million, with more than half of that total occurring in the past 5 
months.
    In March, employment continued to contract throughout most of the 
service-providing sector. Temporary help services employment shrank by 
72,000 over the month. Employment in the industry is down by about 
three-quarters of a million since the recession began, with over half 
of that coming in the past 5 months. In March, other large job losses 
occurred in retail trade (-48,000), financial activities (-43,000), 
transportation and warehousing (-34,000), accommodation and food 
services (-32,000), and wholesale trade (-31,000).
    Health care employment continued to trend up in March, although the 
pace of job growth appears to have slowed in the past 3 months. In the 
first quarter of 2009, the industry added an average of 17,000 jobs per 
month, compared with a monthly average of 30,000 in 2008.
    Average hourly earnings for production and nonsupervisory workers 
in the private sector rose by 3 cents in March, or 0.2 percent. Over 
the past 12 months, average hourly earnings have increased by 3.4 
percent. From February 2008 to February 2009, the seasonally adjusted 
Consumer Price Index for Urban Wage Earners and Clerical Workers (CPI-
W) fell by 0.5 percent.
    The major indicators from our household survey also reflect weaker 
labor market conditions. In March, the unemployment rate rose by four-
tenths of one percentage point to 8.5 percent, and the number of 
unemployed persons reached 13.2 million. Since the recession began in 
December 2007, unemployment has surged by 5.6 million; job losers have 
accounted for about 80 percent of the increase, with returning workers 
and new entrants to the labor market making up smaller portions.
    In March, the number of individuals experiencing long spells of 
joblessness rose by 265,000 to 3.2 million. Nearly one in four of the 
unemployed had been jobless for 27 weeks or more, the highest ratio 
since mid-1983.
    Over the month, the employment-population ratio slipped to 59.9 
percent, 2.8 percentage points lower than at the beginning of the 
recession and the lowest level since July 1985. Among the employed, the 
number of persons working part time who would prefer to be working full 
time increased by 423,000 over the month to 9.0 million. Since December 
2007, this measure has risen by 4.4 million.
    Summarizing the labor market developments for March, payroll 
employment fell by 663,000, and the unemployment rate climbed to 8.5 
percent. Since the beginning of the recession in December 2007, job 
losses have totaled 5.1 million.

    My colleagues and I now would be glad to answer your questions. 

    [GRAPHIC] [TIFF OMITTED] 52188.001
    
    [GRAPHIC] [TIFF OMITTED] 52188.002
    
    [GRAPHIC] [TIFF OMITTED] 52188.003
    
    [GRAPHIC] [TIFF OMITTED] 52188.004
    
    [GRAPHIC] [TIFF OMITTED] 52188.005
    
    [GRAPHIC] [TIFF OMITTED] 52188.006
    
    [GRAPHIC] [TIFF OMITTED] 52188.007
    
    [GRAPHIC] [TIFF OMITTED] 52188.008
    
    [GRAPHIC] [TIFF OMITTED] 52188.009
    
    [GRAPHIC] [TIFF OMITTED] 52188.010
    
    [GRAPHIC] [TIFF OMITTED] 52188.011
    
    [GRAPHIC] [TIFF OMITTED] 52188.012
    
    [GRAPHIC] [TIFF OMITTED] 52188.013
    
    [GRAPHIC] [TIFF OMITTED] 52188.014
    
    [GRAPHIC] [TIFF OMITTED] 52188.015
    
    [GRAPHIC] [TIFF OMITTED] 52188.016
    
    [GRAPHIC] [TIFF OMITTED] 52188.017
    
    [GRAPHIC] [TIFF OMITTED] 52188.018
    
    [GRAPHIC] [TIFF OMITTED] 52188.019
    
    [GRAPHIC] [TIFF OMITTED] 52188.020
    
    [GRAPHIC] [TIFF OMITTED] 52188.021
    
    [GRAPHIC] [TIFF OMITTED] 52188.022
    
    [GRAPHIC] [TIFF OMITTED] 52188.023
    
    [GRAPHIC] [TIFF OMITTED] 52188.024
    
    [GRAPHIC] [TIFF OMITTED] 52188.025
    
    [GRAPHIC] [TIFF OMITTED] 52188.026
    
    [GRAPHIC] [TIFF OMITTED] 52188.027
    
    [GRAPHIC] [TIFF OMITTED] 52188.028
    
    [GRAPHIC] [TIFF OMITTED] 52188.029
    
    [GRAPHIC] [TIFF OMITTED] 52188.030
    
    [GRAPHIC] [TIFF OMITTED] 52188.031
    
    [GRAPHIC] [TIFF OMITTED] 52188.032
    
    [GRAPHIC] [TIFF OMITTED] 52188.033
    
    [GRAPHIC] [TIFF OMITTED] 52188.034
    
    [GRAPHIC] [TIFF OMITTED] 52188.035
    
    [GRAPHIC] [TIFF OMITTED] 52188.036
    
    [GRAPHIC] [TIFF OMITTED] 52188.037
    
    [GRAPHIC] [TIFF OMITTED] 52188.038
    
    [GRAPHIC] [TIFF OMITTED] 52188.039
    
    [GRAPHIC] [TIFF OMITTED] 52188.040
    
    [GRAPHIC] [TIFF OMITTED] 52188.041
    
    [GRAPHIC] [TIFF OMITTED] 52188.042
    
    [GRAPHIC] [TIFF OMITTED] 52188.043
    
    [GRAPHIC] [TIFF OMITTED] 52188.044
    
    [GRAPHIC] [TIFF OMITTED] 52188.045
    
    [GRAPHIC] [TIFF OMITTED] 52188.046
    
    [GRAPHIC] [TIFF OMITTED] 52188.047
    
    [GRAPHIC] [TIFF OMITTED] 52188.048
    
    [GRAPHIC] [TIFF OMITTED] 52188.049
    
    [GRAPHIC] [TIFF OMITTED] 52188.050
    
    [GRAPHIC] [TIFF OMITTED] 52188.051
    
    [GRAPHIC] [TIFF OMITTED] 52188.052
    
        Prepared Statement of Representative Elijah E. Cummings
    I'm saddened, though not surprised, by the latest job loss numbers. 
In February we heard the staggering totals of 660,000 jobs lost. Today 
we find out that 663,000 more jobs were lost in March.
    The labor statistics know no sector bounds either. While layoffs 
began in the early months of the recession in the housing and 
construction and manufacturing sectors, we're now seeing enormous job 
loss and mass layoffs in the employment services and professional 
services sectors.
    Further, we find that our silver lining--the increase in home 
sales--is just another storm cloud. The home price index shows prices 
are still falling, and a sizeable portion of new home sales are being 
made at distressed prices.
    Finally, economists predict that unemployment rates will continue 
to rise before the recession is over--with the Congressional Budget 
Office saying the rate could reach as high as 9.4 percent.
    Today's announcement of an 8.5 percent unemployment rate only 
confirms CBO's dark predictions.
    Those out of work are staying out of work longer, and those lucky 
enough to have jobs often only work part-time, due to the want for 
full-time jobs.
    In February the unemployment rate would have been 14.8 percent if 
we had included those folks who were in part-time positions but wanted 
to work full time.
    I see the impact of the suffering that these numbers add up to 
produce in the lives of my constituents every day.
    The financial markets have been in such disarray that these hard-
working people are suddenly unable to retire.
    After 30-year careers as civil servants, teachers, secretaries and 
bus drivers in Baltimore, they have earned the right to a decent and 
dignified retirement. Suddenly they are working with no end in sight.
    Many of my constituents are also struggling to hang on to their 
homes. I have an employee in my district office who spends 100 percent 
of her time helping constituents with mortgage issues.
    These are honest people who are not in default on their mortgages. 
They are not speculators or investors. They are fighting to get by, and 
they need help to save their homes.
    My only comfort in this rising tide of bad news is that we have 
taken decisive action. We know the reality is that the capital markets 
are not going to heal themselves, and not in any way that is fair to 
all Americans.
    So, I'm proud to have voted with so many of my colleagues for the 
American Recovery and Reinvestment Act, which constitutes a bold stroke 
that will help revive our domestic economy.
    Unlike like the fat cats on Wall Street, I'm here on planet earth. 
We have to face facts. The research suggests that stimulus money takes 
time to show up in the economy.
    But it will show up. And I'm confident it will create jobs and help 
our constituents stay in their homes.
    So, while things may get worse before they get better, I know that 
we are on the right track toward helping all Americans.
    Thank you, Madam Chair. I yield back.
  

                                  <all>

</pre></body></html>
